Review of the Death of Kenneth Michael Trentadue
USDOJ/OIG Special Report
SUMMARY OF THE OFFICE OF THE INSPECTOR GENERAL'S REPORT:
"A REVIEW OF THE JUSTICE DEPARTMENT'S HANDLING OF THE
DEATH OF KENNETH MICHAEL TRENTADUE AT THE BUREAU OF PRISONS'
FEDERAL TRANSFER CENTER IN OKLAHOMA CITY"
December 1999
IntroductionThis investigation by the Department of Justice Office of
the Inspector General (OIG) examined the death of Kenneth Michael Trentadue, an inmate who
died in the Federal Transfer Center (FTC) on August 21, 1995. Located in Oklahoma City,
the FTC is a Bureau of Prisons (BOP) facility that temporarily houses federal inmates who
are in transit to other facilities or who are awaiting parole revocation hearings.
According to FTC correctional officers, at approximately 3:00 a.m. on August 21, they
found Trentadue hanging by a bed sheet around his neck from a grate in his cell. FTC staff
treated Trentadues death as a suicide.
Later that day, Trentadues body was taken to the Oklahoma State Medical
Examiners Office (MEO), where an autopsy was performed. Because of the condition of
Trentadues body, which was bloody, bruised, and lacerated, the Medical Examiner was
not convinced that his death was a suicide. The Medical Examiner initially ruled the
manner of death as pending.
Also on August 21, the FTC notified the Oklahoma City FBI (FBI/OKC) about
Trentadues death. FBI/OKC opened a criminal investigation into the death, but that
investigation, particularly in the first several months, was minimal. Trentadues
family and the MEO, suspicious of the way the federal government was handling the case,
raised numerous questions and allegations about the manner of his death. The family
maintained that FTC employees or inmates had beaten and murdered Trentadue, and that the
federal government was covering up the true manner of his death. This case subsequently
received significant public attention, both in Oklahoma City and nationally. Various
newspaper, magazine, and television reports raised questions about the circumstances of
Trentadues death and the governments response.
In early 1996, the Criminal Section of the Civil Rights Division (CRD) of the
Department of Justice began supervising the investigation in an attempt to determine
whether Trentadue had been beaten or murdered. After CRD presented extensive testimony to
a federal grand jury, it declined prosecution of anyone. In a press release dated October
9, 1997, the Department of Justice reported CRDs conclusions that the investigation
failed to establish credible evidence that any BOP personnel violated federal civil rights
laws and did not establish evidence that was inconsistent with a conclusion that
Trentadue committed suicide.
CRDs conclusions did not end the controversy about Trentadues death. Aside
from the continuing questions about how Trentadue died, substantial questions remained
about the actions of BOP employees in responding to Trentadues death and the actions
of the FBI in investigating the death. As a result, in October 1997, after CRD had
declined prosecution, the matter was referred to the OIG for further review of the
BOPs and the FBIs actions in this case.
After our investigation started, the Oklahoma County District Attorneys
Office also began its own criminal investigation into Trentadues death. In a report
issued in July 1998, the District Attorney concluded that Trentadue had committed suicide.
Also in July 1998, the Oklahoma Medical Examiner amended his findings and concluded that
Trentadue had committed suicide.
The OIG continued this investigation because of the many allegations that persisted
about Trentadues death and how it was handled. We primarily focused on the alleged
deficiencies in the BOPs response to his death and how the FBI investigated it.
However, to address these issues more fully, we also attempted to determine what happened
to Trentadue when he came to the FTC, including how he died. We also investigated many
allegations raised by Trentadues family about CRDs grand jury investigation
into Trentadues death.
During our review, we interviewed more than 230 witnesses, many more than once. Among
the persons we interviewed were FTC employees, including the correctional officers who
responded to Trentadues death; BOP employees who conducted an inquiry into his
death; numerous inmates who had been in the FTC when Trentadue died; Trentadues
brother, Jesse Trentadue, who made numerous allegations relating to his brothers
death; several of Trentadues friends regarding his background and state of mind; the
Medical Examiner and personnel from the MEO; and the emergency personnel who went to the
FTC the night Trentadue died. Also, we interviewed FBI employees who conducted and
supervised the FBIs investigation into Trentadues death. In addition, we
interviewed the CRD attorneys who led the grand jury investigation.
We reviewed thousands of pages of documents from various sources, including the BOP,
FBI, and MEO. In addition, we obtained two court orders granting us access to the
information that had been presented to the grand jury. We also reviewed the FBIs
entire investigative file. We consulted with a variety of forensic experts regarding the
cause and manner of Trentadues death. We independently examined many of the tests
conducted by the FBI on the evidence, and we consulted with outside experts to review some
of those tests.
As a result of our review, we concluded, like the Medical Examiner and the Oklahoma
County District Attorney, that Trentadues death was a suicide and that he had
not been beaten and murdered by correctional officers or inmates. We did not find that the
BOP participated in any conspiracy to cover up his death, as some have alleged. But we did
find that the BOPs response to his death was significantly flawed. FTC employees
made various mistakes, including delaying their entry into Trentadues cell,
attempting to videotape the scene rather than immediately providing medical attention to
Trentadue, failing to assess Trentadues condition properly, failing to inform the
FBI expeditiously and fully about the circumstances of his death, and rushing to clean the
cell the day of his death.
Similarly, we did not find that the FBI attempted to cover up the circumstances of
Trentadues death. But we did find significant deficiencies in the FBIs
investigation and handling of evidence. The FBI devoted insufficient attention to the case
for several months, and mishandled and misplaced several important pieces of evidence.
We also concluded that three BOP employees and one FBI employee made false statements
about their actions to their supervisors, to various investigators, or to the OIG in this
matter.
This Summary briefly presents the major findings of our investigation. Our full report,
which is 206 pages long and includes 17 exhibits, contains grand jury information as well
as information that may be protected by the Privacy Act or that otherwise implicates the
privacy of individuals. In addition, the full report contains information concerning
prison procedures that could compromise the security of a federal institution. Pursuant to
an order from United States District Judge Tim Leonard, we provided our report to the
litigants in a civil lawsuit relating to Trentadues death. We have also provided our
report to the Deputy Attorney General, and, pursuant to an order from United States
District Judge David Russell, to the FBI, the BOP, and CRD so that they may consider any
discipline or other corrective actions that we have recommended or that may be
appropriate.
Trentadues Incarceration at the FTCOn June 10, 1995, Trentadue was
arrested for driving while intoxicated while returning to California from Mexico through
the San Ysidro Port of Entry. A computer check revealed that he was wanted on an
outstanding federal parole violator warrant. Trentadue had been convicted in 1982 for the
armed robbery of a savings and loan institution and had been released from prison in 1987.
After his release, he had violated his conditions of parole, which resulted in a warrant
for his arrest.
Trentadue was detained at the Port of Entry and was eventually transferred to federal
custody. On August 18, 1995, he was flown to the FTC in Oklahoma City, in order to have a
parole revocation hearing before the United States Parole Commission. When Trentadue
arrived at the FTC, he was processed in the normal fashion, which included a screening for
social, psychological, or medical problems. FTC intake staff who screened him noted
nothing unusual about him. On August 18, Trentadue was placed in a cell in the general
population, in the FTCs Parole Violators Unit.
Trentadue began exhibiting strange behavior while in that unit. The OIG interviewed
inmates who were housed in the Parole Violators Unit with Trentadue between August 18 and
August 20. They described his behavior as paranoid, agitated, and weird. For example,
Trentadues cellmate in the unit stated that he acted upset and paranoid, and he
began talking to himself and laughing. Others observed him pacing the cellblock in an
angry and agitated way. Another inmate described him as acting crazy. A few said that
Trentadue appeared disturbed and upset and that he appeared to want to provoke a fight.
On Sunday, August 20, at approximately 7:45 a.m., Trentadue approached a correctional
officer and asked to be taken out of the Parole Violators Unit and moved to protective
custody. The correctional officer called the FTC lieutenant who was responsible for
approving requests for protective custody, and that lieutenant came to the unit and spoke
to Trentadue. The lieutenant remembered Trentadue telling her that since his arrival at
the FTC he had a feeling that things arent quite right and that his
problems might have resulted from a case of mistaken identity. He stated that he had
stepped into some shit. He would not clarify what this meant, but again asked
to be placed in protective custody.
The lieutenant approved Trentadues request and escorted him to the FTCs
Special Housing Unit (SHU), a segregation unit in which inmates are more closely
supervised and monitored. Entrance to and exit from the SHU are strictly controlled. The
SHU is divided into three sections, called pods, which contain approximately
30 cells each. Four officers are on duty in the SHU on each shift.
When the lieutenant took Trentadue to the SHU, she completed an Administrative
Detention Order that documented the reason for placing Trentadue in the SHU. The
lieutenant wrote on the form: Inmate [Trentadue] requested admission to SHU for his
own protection. Inmate [Trentadue] believes other inmates are out to get him.
Trentadue signed the form. SHU officers on duty took custody of Trentadue and
strip-searched him, in accord with the standard procedure when an inmate is transferred to
the SHU. The officers said they observed nothing unusual about Trentadue and detected no
injuries on him. Trentadue was then placed alone in SHU cell A709. The SHU officers on
duty on August 20 said they observed Trentadue in his cell alone, with nothing noteworthy
occurring in the cell.
Four correctional officers were on duty on the midnight to 8:00 a.m. shift on August
21. At irregular intervals, two of the officers are required to conduct rounds. During
rounds they walk through the SHU and look inside each cell to confirm that every inmate is
in his cell and that nothing out of the ordinary is occurring. The officers are required
to document these rounds by swiping a card through a card reader located in the hallway of
each pod. According to the SHU card reader records, SHU officers conducted rounds on
August 21 at 12:26 a.m., 1:58 a.m., and 2:38 a.m. The officers also conducted a count
 which verifies that all inmates throughout the entire FTC are present and accounted
for  at 1:00 a.m. and 3:00 a.m. on August 21.
The two correctional officers who went on the 2:38 a.m. round said they saw Trentadue
during this round in his bunk and noticed nothing to cause them any alarm. One said he saw
Trentadue lying on the top of his blanket with his sheet over his body. The officer saw
Trentadues head, and nothing seemed out of the ordinary.
Trentadues Death and the BOPs Response
Trentadue Discovered HangingTwo SHU officers conducted the count at
approximately 3:00 a.m. As one of the officers was passing Trentadues cell, he saw
Trentadue in the cell hanging by a bed sheet from the vent above the sink. The officer
said he immediately called on his radio for help, but the radio malfunctioned. The other
SHU officer conducting the count then called on his radio that an inmate was hanging. A
third SHU officer immediately came to the cell.
Yet, these SHU officers did not enter the cell and bring Trentadue down. We found
differing versions as to why they did not do so. The first SHU officer said that when he
reached the cell, he was about to open the cell door but he was told by another officer
that the FTC Lieutenant on duty that morning had called and instructed them to wait for
him before entering the cell. The Lieutenant and the other officers did not remember this
instruction. The Lieutenant said that when he was in the FTCs Control Room
monitoring operations throughout the FTC, he heard a radio transmission that an inmate was
hanging in the SHU. He told Control Room staff to notify FTC executive staff and then went
directly to Trentadues cell. While on his way to the cell, the Lieutenant radioed to
SHU staff to get a video camera. The Lieutenant said that when he arrived at the cell,
several correctional officers were standing outside the cell door. He said he then radioed
for a FTC physician assistant to come to the cell. The Lieutenant said that at that time
he looked through the cell door window and observed Trentadue hanging, with his head
slumped down, his hands at his side, with no movement at all. The Lieutenant said he
believed that Trentadue was dead and therefore decided to document the scene with the
video camera before entering the cell.
A video camera was located and brought to Trentadues cell. As a correctional
officer began filming the scene, the Lieutenant introduced himself on camera and gave a
brief description of the situation, stating that they had an inmate hanging in the cell.
After this introduction, which we were told took anywhere from twenty seconds to two
minutes, the officers unlocked the cell door.
There is some disagreement about who went into the cell first. One officer said that
the camera operator entered the cell first and filmed the inside of it. However, the
majority of officers said that a physician assistant, who had arrived at the cell by this
time, entered the cell first and examined Trentadue while he was still hanging. The
physician assistant said that when he entered the cell, he checked Trentadues pulse
while he was hanging and detected no pulse. The physician assistant then placed his
stethoscope on Trentadues chest and did not hear any breathing or heart sounds. The
physician assistant then pronounced Trentadue dead. Trentadue was cut down and placed on a
gurney. The physician assistant again checked Trentadue for a pulse and used his
stethoscope to check for breathing and heart sounds, but did not find any.
Trentadues body was taken to the FTC infirmary. An Emergency Medical Services
Authority (EMSA) paramedic and driver arrived at the FTC at approximately 3:32 a.m. The
paramedic spoke to the physician assistant, who said that Trentadue was dead and there was
no reason to provide medical services. The physician assistant stated that Trentadue had
hung himself and had lacerations to his neck. The paramedic asked whether the physician
assistant was pronouncing the inmate dead, and the physician assistant responded
yes. As a result, the EMSA employees left the FTC.
When the FTC Associate Warden arrived at the FTC at about 4:00 a.m., he directed that
EMSA personnel be asked to return. The Associate Warden met the EMSA paramedic when he
arrived at the FTC the second time and convinced him to examine Trentadue and pronounce
him dead. The paramedic examined Trentadue and saw that his skin was gray and he was not
breathing. The paramedic noted that Trentadues head was bloody, with trauma to his
forehead. The paramedic placed a heart monitor on Trentadue and at 5:06 a.m. pronounced
him dead. The EMSA personnel then left the FTC.
Because the EMSA personnel did not take Trentadues body, FTC staff called the MEO
to ask it to pick up Trentadues body from the FTC. A MEO investigator arrived at the
FTC and saw Trentadues body in the infirmary. The MEO investigator said that she had
never seen a hanging accompanied by a cut neck and head trauma, and she became concerned
about the cause of Trentadues death. She asked questions about how Trentadue was
found and how his injuries were sustained. She also viewed Trentadues cell through
the cell door window. At approximately 7:20 a.m., she left the FTC along with
Trentadues body, and went to the MEO.
During the morning of August 21, the Acting Warden of the FTC notified Trentadues
family about his death. The Acting Warden also spoke with the MEOs Chief
Investigator about Trentadues death. Although their recollections differed, the
Acting Warden asked the MEOs Chief Investigator if the MEO had received the
FTCs request to perform an autopsy on Trentadues body. The Chief Investigator
said that the MEO would conduct an autopsy, but he expressed his concern that the
condition of Trentadues body indicated that he did not commit suicide. He suggested
that the FBI be notified about the death.
Evidence Collection and Notification of the FBIAt approximately 5:30 a.m., an
FTC Lieutenant responsible for conducting internal investigations of alleged BOP and
inmate misconduct arrived at the FTC. After he was briefed about the matter, he went to
the infirmary and took photographs of Trentadues body. The Lieutenant then went to
cell A709 and took photographs of it. He also took custody of the videotape of Trentadue
and put it in his office.
At approximately 7:30 a.m., the Lieutenant first attempted to notify the FBI/OKC about
Trentadues death. The Lieutenant did not reach the FBI agent he was calling at this
time and did not leave a message on his voice mail. At approximately 9:00 a.m., the
Lieutenant and a technician began processing cell A709 for evidence relating
to Trentadues death. They collected various items from the cell  such as the
blood-stained sheet used as a noose, a blood-stained pillowcase, a plastic knife, a
pencil, two blood-stained tubes of toothpaste, and Trentadues personal papers. After
processing the cell for evidence, the Lieutenant and the technician went back to their
office, where they documented what they had collected.
Later that morning, the Associate Warden decided that Trentadues cell should be
cleaned. The Associate Warden told the OIG that when he asked the Lieutenant who had
processed the cell for evidence during the morning of August 21 if the FBI had been
notified, the Lieutenant told him that the FBI had been notified and had instructed the
Lieutenant to send it a report about the incident. In addition, the Associate Warden said
that he had been informed by FTC medical staff that Trentadues blood count indicated
a high probability that he was HIV-positive. (In fact, Trentadue was not HIV-positive.)
The Associate Warden said he thought that the cell should be cleaned promptly because of
the potentially infectious blood. The Associate Warden said that when he saw the
Lieutenant again at approximately 11:00 a.m., the Lieutenant told him he was finished
processing the cell for evidence and that it could be released. The Associate
Warden said he therefore instructed the FTC Health Unit to clean the cell.
However, the FBI agent whom the Lieutenant had called said he did not speak with the
Lieutenant until approximately 11:30 a.m. The Lieutenant later admitted to the OIG that he
had tried to contact an FBI agent early in the morning of August 21, but did not
speak to anyone at the FBI about Trentadues death until after he had processed the
cell for evidence.
Moreover, when the Lieutenant spoke to the FBI on August 21, he did not provide full
details about Trentadues death. Although recollections of the conversation on August
21 differed, the Lieutenant said he told the FBI agent that FTC correctional officers had
found Trentadue hanging in a secure cell, that Trentadue had committed suicide by hanging
himself, and that there was a little bit of blood. The FBI agent said that he was not told
about any blood or the extent of Trentadues injuries. They agreed that the FBI agent
told the Lieutenant to submit a report describing what had happened.
At approximately 1:00 p.m., FTC medical staff and inmates cleaned Trentadues
cell. Just before the cleaning, the Lieutenant took additional pictures of the cell,
including photographs of words written on the wall of the cell that appeared to state,
My Minds No Longer Its Friend, Love Ya Familia.
Investigations into Trentadues DeathThe MEO performed an autopsy on
Trentadue during the morning of August 21. Concerned about the extent of Trentadues
injuries, the MEO Chief Investigator called the FBI to express his suspicions about
Trentadues death and to suggest that it might have been a homicide, not a suicide.
An FBI agent and an FBI photographer went to the MEO during the afternoon of
August 21. They viewed Trentadues body, took photographs of it, and collected
evidence from the MEO, including the bloody sheet that had covered Trentadues body
during transport from the FTC to the MEO, fingernail clippings, and swabs. After returning
to FBI/OKC with this evidence, the FBI agent reported that Trentadues death could
have been a homicide, and he turned over the evidence he had collected to another agent.
The FBI opened a criminal investigation into Trentadues death.
The BOP also initially investigated Trentadues death. Following inmate deaths
that appear to be a suicide, the BOP normally sends a team of BOP psychologists to
identify any problems with the BOPs actions related to the suicide. The BOP team
that went to the FTC on August 21 had become concerned that the incident memoranda
prepared by FTC employees contained little information about the death and the FTCs
response. The BOP team also learned about the delay in entering Trentadues cell and
responding to him. The team therefore had the matter referred to the BOP Office of
Internal Affairs, and the BOP convened a Board of Inquiry (BOI) to investigate
Trentadues death. The BOI interviewed some FTC staff, but decided to end its
investigation after approximately two weeks because of the FBIs open criminal
investigation.
For the first several months, the FBIs investigation was minimal. The FBI first
went to the FTC regarding this case on August 24, three days after Trentadues death.
An FBI agent spoke with several FTC officials and received copies of the Lieutenants
photographs of Trentadues body and the cell, but the FBI conducted no interviews
that day. The FBIs first interviews  of twelve FTC staff  were conducted
on August 28. The FBI did not interview any inmates at that time, did not examine the
cell, and did not collect any evidence. In September and October, the FBI/OKC did little
additional investigation. It sent out some requests to other FBI offices asking them to
locate and interview Trentadue family members and several inmates who had been in the FTC
on August 21 but were no longer there.
Beginning in November 1995, FBI/OKC supervisors became concerned about the slow pace of
the investigation and tried to ensure that the case became a priority. In late November, a
key event in the investigation occurred  the United States Attorneys Office
for the Western District of Oklahoma (USAO) was notified about the case by a Department of
Justice official who had received complaints from the Medical Examiner about the
BOPs and FBIs response to Trentadues death. The USAO scheduled a meeting
with the FBI/OKC. As a result of this meeting, the USAO believed that the FBI/OKC was not
actively investigating the case. The USAO suggested that the FBI consult with the Oklahoma
City Police Department (OCPD), which had extensive experience in homicide investigations,
and the USAO contacted the Department of Justice Civil Rights Division (CRD), which
conducts and oversees investigations of potential criminal violations implicating federal
civil rights statutes.
In December 1995, the FBI assigned another agent to assist in the investigation, and
the pace and thoroughness of the investigation increased dramatically. In early 1996, CRD
began to supervise the investigation and decided that the matter warranted presentation to
a federal grand jury. In conjunction with the grand jury investigation, the FBI conducted
numerous interviews of relevant witnesses, and CRD began presenting the evidence to the
grand jury.
On October 9, 1997, the Department of Justice issued a press release announcing that
CRD was concluding its investigation into Trentadues death. The press release stated
that the investigation did not establish credible evidence that any BOP personnel violated
federal civil rights laws and did not establish evidence that was inconsistent with a
conclusion that Trentadue had committed suicide. The press release announced that the
matter was being turned over to the OIG. We began our investigation in October 1997.
OIG Conclusions Regarding the Cause and Manner of Trentadues DeathTo
determine whether BOP staff committed any misconduct in connection with Trentadues
death, we believed it important to determine the cause and manner of Trentadues
death. We reviewed the physical evidence, examined the reports of the MEO and the District
Attorney which concluded that Trentadues death was a suicide, conducted interviews
of numerous witnesses, consulted with various forensic experts about what the evidence and
forensic tests showed, and performed tests of our own. While we cannot know with absolute
certainty what happened in Trentadues cell the morning he died, we concluded that
the available evidence and the expert analysis of it demonstrated that he committed
suicide and that he was not beaten or killed by BOP staff or inmates.
We reached these conclusions for several reasons. First, the Medical Examiners
autopsy report suggested that injuries to Trentadues body could have been
self-inflicted. We also concluded that Trentadue could have caused his injuries with the
items available to him in the cell. According to a forensic expert we consulted, some
injuries on his neck were consistent with a hanging and other injuries on his neck could
have been caused by Trentadue attempting to cut himself with the items in his cell. Our
expert also noted that the autopsy report revealed no defensive wounds indicating that
Trentadue had been involved in a fight.
Second, the autopsy report revealed that Trentadue was alive at the time of hanging,
and toxicology tests performed by the MEO on his body showed no evidence of any
incapacitating drugs in him.
Third, the OCPD bloodstain pattern expert who analyzed the patterns of blood shown in
the photographs of Trentadues cell taken on August 21 concluded that they were
consistent with self-inflicted wounds, not with a beating. The expert also described in
detail his opinion as to the most probable sequence of events, based on the available
tests, reports, photographs, physical evidence, and the bloodstain patterns. The expert
concluded that Trentadue first attempted to hang himself, fell from the sink during this
attempt, attempted to cut his throat with a toothpaste tube, then successfully hanged
himself with a bed sheet he put around his neck and attached to the vent grate above the
sink.
Fourth, the OIG conducted a weight support test on a grate that was similar to the one
in Trentadues cell on August 21. When we formed a ligature from a sheet similar to
the one in Trentadues cell and threaded the sheet through the grate, we found it
could support Trentadues weight.
Fifth, FBI Laboratory tests did not find anyone elses blood on items taken from
Trentadues cell.
Sixth, we found no credible witness testimony supporting the claim that Trentadue had
been beaten or killed, either inside or outside his cell, by someone else. Access to the
SHU is subject to strict controls, and several officers would have had to be involved in a
conspiracy to kill Trentadue and cover it up. We found no evidence of such a conspiracy.
In addition, the FTC officers who responded to Trentadues death did not act as if
they were involved in such a conspiracy  they immediately summoned help and rushed
to his cell. We also found their denials of any such conspiracy to be credible. Moreover,
SHU officers passed polygraphs on the issue of whether they helped beat or kill Trentadue.
Inmates who were in the SHU on August 21 also told us they did not hear or see any
officers enter Trentadues cell or beat him, and they heard no calls for help or
sounds of an altercation at any time before Trentadues death.
Seventh, Trentadues state of mind was not inconsistent with suicide. After having
been out of prison since 1987, Trentadue faced a potential prison sentence of between
eighteen and twenty-eight months, and possibly longer, according to a lawyer at the U.S.
Parole Commission. Inmates described him as exhibiting unusual behavior in the Parole
Violators Unit. He later sought protective custody, suggesting without explanation that he
thought that someone was out to get him.
Eighth, on the wall of his cell directly behind where Trentadue was hanging, was a note
written in pencil that appeared to state, My Minds No Longer Its Friend, Love
Ya Familia. An FBI document examiner was unable to determine whether Trentadue wrote
this, partly because of the lack of detail in the photographs of the wall writing. The OIG
submitted additional samples of Trentadues handwriting to an INS forensic document
examiner. He concluded that Trentadue probably made the wall writing and that
his handwriting was totally consistent in the significant habitual handwriting
characteristics portrayed on the wall. The OIG also obtained handwriting exemplars
from the eighteen inmates who occupied Trentadues cell since the FTC first opened in
1995, all SHU staff on the shift before Trentadue died and the shift during which he died,
and key FTC employees. The INS document examiner concluded that none of them had written
the note on the wall. The wall writing provides further evidence that Trentadues
state of mind was consistent with his committing suicide.
In sum, we concluded, like the Medical Examiner and the District Attorney, that the
allegation that Trentadue was beaten and killed by others, either inside or outside of his
cell, was not supported. Rather, the evidence showed that Trentadue committed suicide.
OIG Conclusions Regarding the BOPs Response to Trentadues DeathAlthough
we concluded that no one beat or killed Trentadue, many critical questions remained about
the BOPs response to his death. Our review found serious deficiencies in that
response.
The correctional officers who discovered Trentadue hanging in his cell responded in a
timely fashion. Within seconds, several SHU officers arrived at his cell and were poised
to enter. Unfortunately they did not do so. Instead, they waited outside the cell for a
Lieutenant to arrive. When he arrived, he looked through the cell door window and, based
upon Trentadues appearance, assumed that Trentadue was dead. We believe that this
assumption was inappropriate. The Lieutenant was not qualified or trained to make such a
determination. As a result of his assumption, the Lieutenant ordered the scene videotaped.
This was also inappropriate, because it delayed what should have been the first priority
 providing medical attention to an inmate. We cannot say when Trentadue hanged
himself  closer to 2:38 a.m., when he was last seen alive during the correctional
officers round or closer to 3:02 a.m., when the officers found him hanging. But it
is clear that it took at least six minutes from the time he was discovered hanging and the
time that the officers entered his cell, and at least two more minutes, and perhaps more,
before the officers brought him down. This delay was inappropriate. FTC employees should
have ensured that Trentadue received medical attention immediately, not that the scene was
videotaped.
We also concluded that the physician assistant failed to respond to Trentadues
death adequately. As the FTCs medical authority on the scene, he should have
instructed the officers to bring Trentadue down immediately and then he should have
examined Trentadue, attempted to revive him, or determined if he would respond. Instead,
the physician assistant examined Trentadue while he was still hanging, which was an
improper way to assess Trentadues condition. The physician assistant also pronounced
Trentadue dead before determining whether life saving measures could have revived him.
This pronouncement was premature and also not within his area of responsibility.
The Lieutenant who notified the FBI of the death told his supervisors, the FBI, and
initially the OIG that he first spoke to the FBI early in the morning of August 21. He
eventually admitted to the OIG that he did not speak to the FBI until after he had
processed the cell for evidence. Also, when the Lieutenant first spoke to the FBI about
the death, he did not provide sufficient detail about the circumstances of
Trentadues death  such as a description of Trentadues injuries and the
extent of the blood in his cell. The Associate Warden ordered the cell cleaned based on
this inaccurate representation that the FBI had already been notified.
Because FTC staff viewed the matter as a suicide rather than a possible crime, this led
to other problems. For example, it caused the cell to be processed for evidence
inadequately. The FTC did not collect the evidence properly, photograph the cell
sufficiently, or describe the evidence he had collected accurately. Some of the evidence
was moved before photographs were taken.
We also believe that the FTCs rush to clean the cell was inappropriate,
especially in light of the suspicions expressed to the FTC by the MEO about the condition
of Trentadues body and the possibility that he had been killed. The hurry to clean
the cell because of the concern that Trentadues blood might be HIV-positive and
could infect others was misplaced, since the cell could have been sealed off. This rush to
clean the cell was misguided and eliminated important evidence.
Various technical or administrative failures in the BOPs response also
contributed to the conspiracy theories that arose after Trentadues death. For
example, when FTC employees attempted to view the videotape taken of Trentadue and the
cell, none of the recording showed up on the tape. This gave rise to allegations that the
BOP had tampered with or destroyed evidence. We investigated this possibility, consulting
with four experts in videotape analysis. Although one experts opinion differed,
three of the experts did not find that the videotape was tampered with or erased. We
concluded that the camera operator unintentionally failed to record the scene and that no
one tampered with the tape.
The FTC also misplaced evidence, such as the original Administrative Detention Order
(ADO) signed by Trentadue when he requested transfer to the SHU. The original ADO was
missing for almost two years before the FTC found it. In addition, the FTC failed to
properly identify where a SHU inmate had been housed the morning Trentadue died, which
caused confusion when the inmate made up claims about what he had allegedly witnessed the
morning Trentadue died. The FTC issued a press release shortly after Trentadues
death that inaccurately stated that Trentadues death had been ruled a suicide by the
Medical Examiner when the death had not yet been ruled a suicide.
We also found that there had been significant confusion among the BOP, FBI, and state
and local authorities as to who had jurisdiction to investigate possible crimes at the
FTC. The FTC is located on land leased, not owned, by the federal government. This created
uncertainty about the jurisdiction of these entities to respond to and investigate deaths
there. Because the FTC only recently had opened, no memorandum of understanding between
the state and federal authorities addressed these issues. This matter was eventually
addressed by a memorandum of understanding in 1997 among the FBI, the BOP, and the MEO,
which set forth their respective responsibilities in joint investigations of deaths at the
FTC.
Finally, we did not substantiate various allegations made by Trentadues brother,
Jesse Trentadue, about other BOP actions. For example, we did not find, as he alleged,
that the photographs of Trentadues body and the cell were taken on different days or
that a watch in one of the photographs of Trentadues body suggested that the
photograph was taken before the time correctional officers said they discovered Trentadue
hanging. We did not find that the FTC attempted to prevent an autopsy of Trentadue or that
credible evidence supported the claim that specific correctional officers beat Trentadue
and then covered up their actions.
OIG Conclusions Regarding the FBIs Investigation into Trentadues DeathWe
carefully examined the FBIs investigation into Trentadues death and did not
find evidence that the FBI attempted to cover up the true circumstances of his death. We
also believe that the FBI, along with CRD, reached the correct conclusion that the
evidence did not establish that Trentadue was beaten and murdered. However, we found the
FBIs investigation, particularly in the initial stages, to be significantly flawed.
After the FBI first learned about Trentadues death, it responded in a slow and
haphazard fashion. The FBI was notified by the FTC about the death during the morning of
August 21. Although the FBI did not receive a full briefing about the circumstances of the
death, the FBI also failed to inquire adequately about the details of the death and simply
told the Lieutenant to send a report.
The FBI also learned from the MEO and the FTC on August 21 about the MEOs
suspicions that the death was a homicide. However, no one from the FBI went to the FTC
until three days later. On August 24, the FBI paid a brief visit to the FTC and did not
even examine Trentadues cell. No one from the FBI interviewed any witnesses until
August 28, a week after Trentadues death, and no inmates were interviewed at that
time. Over the next two months, in September and October, the FBI conducted little
investigation. Given the concerns of the MEO and the suspicious injuries to
Trentadues body, the FBIs initial efforts on this case were lacking.
We found that the FBIs case documentation was significantly deficient and
significant events were never documented. For example, the FBI failed to document the
initial call from the FTC notifying it about Trentadues death, which would have
aided in determining when that call was made and what was said. Other calls as well as
trips to the FTC were also not documented.
The FBI/OKC failed to submit important samples of Trentadues handwriting to the
FBI document examiner for comparison with the handwritten note on the wall in
Trentadues cell. The FBI/OKC submitted only two forms that Trentadue had signed at
the FTC. Those forms contained minimal samples of his writing. Yet, the FBI had been given
letters that Trentadue wrote to his family shortly before his death that contained
extensive samples of his writing. The FBI never submitted these letters to the FBI
document examiner for comparison.
The FBI/OKC also waited several months  until November 15  to collect
evidence the FTC had retained, such as the bloody linens from Trentadues cell, the
toothpaste tubes, the pencil, the plastic knife, and Trentadue's personal papers that had
been found in his cell. The FBI/OKC first submitted evidence to the FBI Laboratory for
testing on November 30, more than three months after Trentadues death. This
submission was mislabeled and did not accurately describe what had been submitted.
The FBI/OKC also failed to recognize that a SHU inmate who claimed to have witnessed
events in Trentadues cell on August 21 could not have seen what the inmate claimed
because of the location of the inmates cell.
The FBI/OKC mishandled various pieces of evidence. On August 21, the FBI received
evidence from the MEO, which included the bloody sheet that had covered Trentadues
body during transport from the FTC to the MEO, fingernail clippings, swabs, and other
evidence. We concluded that this evidence was not turned in to an FBI evidence technician
until September 8, several weeks later. Afterwards, the sheet was not dried and
stored properly and by the time it was finally submitted to the FBI Laboratory for testing
on November 30, the sheet had putrefied and become unsuitable for testing. Moreover, the
FBI never determined where this sheet had originated, despite distinctive markings that
showed the sheet had been placed on Trentadues body by the company that transported
his body from the FTC to the MEO.
The FBI/OKC misplaced the negatives of FTC photographs taken of Trentadues body
and the cell on the morning of August 21. The FBI/OKC did not document its receipt of
these negatives, and the FBI could not find the negatives for several years. As a result,
various investigators and forensic experts were unable to use the negatives to make
enlargements or enhancements of these critical pictures of the cell and Trentadues
body. In March 1999, when the FBI/OKC was moving offices, the negatives were found in a
moving box. The FBI/OKC also did not document its receipt and handling of other
photographs, such as Polaroid photographs taken by the FTC of Trentadues body in the
infirmary on August 21. These photographs were also misplaced. Post-autopsy photographs
taken by the FBI at the MEO on August 21 were also not properly documented and were
temporarily misplaced.
We believe that FBI/OKC supervisors share some responsibility for the deficiencies in
the investigation of this case. FBI supervisors took insufficient steps to address the
problems in the case until several months into the investigation. In addition, the
supervisors initially classified the FBIs case as a possible crime on a government
reservation, even though the FTC was not on federal land. In addition, the supervisors
initially failed to classify the case as a civil rights case and failed to promptly notify
the Department of Justices CRD about the possible civil rights violation when the
case was opened.
Based on our review, we became concerned about broader problems in the way the FBI/OKC
handled evidence in this case, particularly in the way that it documented the chain of
custody of evidence. After the evidence control technician received evidence from an
agent, the technician would prepare a computer-generated evidence form, fill in the chain
of custody form, then send the form back to the agent, who would list when the agent had
collected the evidence. This out-of-sequence procedure permitted disputes to arise as to
the chain of custody of evidence and how it was handled. Several such disputes occurred in
this case.
We recognize that some of the problems in the FBIs investigation of this case can
be explained by mitigating circumstances. The top management of the FBI/OKC changed during
the first months of the Trentadue investigation. More significantly, the April 1995
bombing of the Alfred P. Murrah Federal Building in Oklahoma City and the investigation of
that bombing drained enormous resources from the FBI Oklahoma City office and required
massive attention. Yet, the problems we saw in this investigation were too numerous and
too fundamental to be solely explained by these circumstances. The FBI did not treat the
Trentadue investigation seriously enough in its initial stages, the FBI made significant
mistakes in investigating this case, and FBI supervisors did not adequately address these
deficiencies until several months later.
Our report also discusses briefly the problems we encountered in obtaining evidence and
cooperation from the FBI/OKC during our review. The OIG received full cooperation from the
BOP as well as from personnel in FBI Headquarters in Washington, D.C. The FBI/OKCs
lack of cooperation was in marked contrast. It attempted to discount the importance of
aspects of our review, and its responses to OIG document and information requests were
consistently late. The responses we received were often incomplete or inaccurate.
A significant example of FBI/OKCs lack of cooperation was its response to our
request for an original evidence form, known as the green sheet, that an FBI agent
completed before he turned in the evidence that had been collected from the MEO to the
FBIs evidence control technician. This green sheet was critical to resolving a
dispute about the date that the agent turned in this evidence. When the FBI/OKC
ultimately found the original of the green sheet, we requested it immediately. Yet, the
FBI/OKC refused to provide the original to us, despite our repeated requests. The FBI/OKC
stated that all we needed was a copy and that the original would be safeguarded.
Eventually the FBIs Office of General Counsel in Washington instructed FBI/OKC to
provide us with the original document. However, the FBI/OKC then informed us that it had
just discovered that the original had been inadvertently destroyed. We investigated this
matter. Although we did not conclude that the destruction of the original was intentional,
we believe this incident vividly demonstrated the difficulties we faced in obtaining
information and cooperation from the FBI/OKC.
False Statements by BOP and FBI EmployeesWe concluded that three BOP employees
and one FBI employee made false statements under oath to their supervisors, to various
investigators, or to the OIG in this matter. We referred this matter to the Public
Integrity Section of the Department of Justice. After its review, it declined prosecution
because of lack of prosecutive merit. However, we believe these false
statements constituted serious misconduct, and have referred the matter to the BOP and FBI
for appropriate action.
Allegations Regarding CRDs Grand Jury Investigation Into Trentadues DeathJesse
Trentadue raised numerous allegations about the way that CRD attorneys handled the grand
jury investigation of his brothers death. Some media reports raised similar
allegations. These allegations included claims that CRD attorneys and the FBI deliberately
ignored evidence that Trentadue was murdered to bolster the suicide theory, that CRD
attorneys knowingly provided false testimony to the grand jury, or that the grand jury was
a sham and a whitewash.
We obtained complete access to the full grand jury materials and interviewed various
witnesses about these allegations, including the CRD attorneys who conducted the grand
jury investigation as well as Jesse Trentadue. Based on our review of the grand jury
materials, the evidence, and our interviews of witnesses, we did not substantiate any of
these allegations against CRD attorneys. We concluded that CRD attorneys conducted a
substantial, good faith investigation into the circumstances of Trentadues death. We
did not find that any CRD attorneys committed misconduct during the investigation.
RecommendationsAt the end of our report, we made a number of recommendations
in response to the problems we found in this case. With regard to individuals, we
concluded that the three BOP employees and the FBI employee who made false statements
committed serious misconduct and should receive significant discipline.
We also make various systemic recommendations to address the problems we found in this
case. For example, with regard to the BOPs response to Trentadues death, our
recommendations include:
The BOP should ensure that its employees are instructed fully about the
appropriate response to medical emergencies in prison facilities and are fully cognizant
that inmate safety should take precedence over documentation of a crime scene. We suggest
that the written policies and procedures in this regard should be more clearly described
in BOP manuals.
The BOP should emphasize in its policies and training the proper response to medical
emergencies, such as hangings. Its policies and training should emphasize a rapid response
to such emergencies.
The BOP should adopt practical, yet safe, guidelines for entering a segregation cell
(such as a SHU cell). We recommend that the BOP clarify its policies and provide for
flexible guidelines for when BOP officers may enter such a cell.
BOP staff, particularly physician assistants, should be instructed that it is
inappropriate to assume that an inmate is dead. Rather, lifesaving measures should be
attempted immediately. The BOP should also clarify who is authorized to pronounce an
inmate dead.
The BOP should clarify when staff should use video equipment to record emergencies. It
should not require the recording of all emergencies, regardless of type. We recommend that
the BOP differentiate between medical emergencies, where videotaping should not be
required, from other emergencies, such as forced cell extractions, where videotaping is
customarily used.
With regard to the FBI, our recommendations include:
The FBI/OKC should consider the need to coordinate and communicate more
fully with the Medical Examiner in death investigations, particularly where there are
suspicious circumstances associated with the death.
The FBI/OKC should emphasize and ensure that agents fully document their investigative
work, in accord with FBI policies. The FBI/OKC should also emphasize the importance of
maintaining complete and orderly files.
The FBI/OKC should reevaluate the way it processes evidence, particularly the way that
the chain of custody is established when agents first submit evidence for storage to the
evidence control technician.
The FBI/OKC should enforce the policy that requires the submission of
late-day memoranda in all instances where agents or evidence control
technicians do not submit or process the evidence or the documentation for the evidence in
a timely fashion.
The FBI should ensure that evidence control technicians attend Evidence Program
In-Service training at the FBI Academy before or soon after they assume their
responsibilities.
The FBI and CRD, in conjunction with the BOP and other Department of Justice components,
should clarify the process by which CRD is notified of investigations of potential crimes
involving possible civil rights violations.
ConclusionsThis report reflects the OIGs exhaustive efforts to examine
the cause and manner of Trentadues death, the conduct of BOP personnel in responding
to that death, and the conduct of FBI investigators and CRD attorneys in investigating
that death. We believe that the evidence showed that Trentadue committed suicide, that BOP
employees or inmates did not murder him, and that BOP and FBI employees did not conspire
to cover up the true circumstances of his death.
We also concluded that the BOPs response to his death was seriously deficient in
various ways. Although BOP employees responded to Trentadues cell in a timely
fashion, they inappropriately delayed entry into his cell, did not examine him properly,
and did not immediately provide medical attention to him. The BOPs notification to
the FBI about his death was late and insufficient. The BOP inadequately processed the cell
for evidence and inappropriately rushed to clean the cell.
The FBI did not investigate the case adequately, particularly in the early stages. The
FBI mishandled evidence, failed to document the case adequately, and made various mistakes
in its investigation. These mistakes fueled the allegations that Trentadue was murdered
and the government was engaging in a cover-up. However, based on our extensive review, we
concluded that these allegations were not supported.
#####